UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7620
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
RAYMOND LEWIS PERRY,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Norfolk. Robert G. Doumar, Senior District Judge. (2:1 l-cr-00042-RGD-FBS-l; 2:16cv-00302-RGD)
Submitted: April 27, 2020

Decided: May 6, 2020

Before FLOYD and QUATTLEB AUM, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed in part, vacated and remanded in part by unpublished per curiam opinion.
Raymond Lewis Perry, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Raymond Lewis Pen/ appeals the district court’s order and judgment granting in
part Perry’s 28 U.S.C. § 2255 (2018) motion and vacating Perry’s conviction and term of
imprisonment for Count 2, using, carrying, and possessing a firearm during and in relation
to a crime of violence, and aiding and abetting such conduct, in violation of 18 U.S.C.
§§ 924(c)(l)(A)(i), 2 (2018), and correcting Perry’s term of imprisonment for Count 4,
using, carrying, and brandishing a firearm during and in relation to a crime of violence and
aiding and abetting such conduct, in violation of 18 U.S.C. §§ 924(c)(l)(A)(ii), 2 (2018).
We affirm in part and vacate and remand in part.
Perry contends that he was entitled to a plenary resentencing and that his convictions
for Counts 4, 6, and 8 are invalid because the underlying Hobbs Act robbery offenses are
not crimes of violence. A district court “has broad discretion in crafting relief on a § 2255
claim.” United States v. Chaney, 911 F.3d 222, 225 (4th Cir. 2018). Although the court is
authorized to conduct a resentencing in awarding relief pursuant to § 2255, it is not required
to do so. United States v. Hadden, 475 F.3d 652, 668 (4th Cir. 2007). As this court
observed, a successful § 2255 proceeding must result in “the vacatur of the prisoner’s
unlawful sentence .. . and one of the following: (1) the prisoner’s release, (2) the grant of
a future new trial to the prisoner, (3) or a new sentence, be it imposed by (a) a resentencing
or (b) a corrected sentence.” Id. at 661; see also 28 U.S.C. § 2255(b). “[T]he goal of
§ 2255 review is to place the defendant in exactly the same position he would have been
had there been no error in the first instance.” Hadden 475 F.3d at 665 (internal quotation
marks omitted).
2

We conclude that the district court did not abuse its discretion in denying Perry’s
request for a plenary resentencing. The district court appropriately vacated the term of
imprisonment ordered for Count 2 and reduced Perry’s term of imprisonment for Count 4.
Perry was not entitled to resentencing on the remaining firearm convictions, Counts 6 and
8. Furthermore, the court properly found that Perry’s convictions for Counts 4, 6, and 8,
remained valid. See United States v. Mathis, 932 F.3d 242,265-66 (4th Cir. 2019) (holding
that Hobbs Act robbery constitutes a crime of violence under § 924(c)’s force clause). Yet,
in vacating the sentence for Count 2, the district court should have also vacated the $100
special assessment and the 5-year term of supervised release ordered for that conviction.
Accordingly, we affirm in part the district court’s order and judgment correcting
Perry s term of imprisonment, but vacate that portion of the court’s judgment ordering the
$100 special assessment and 5-year term of supervised release for Count 2, and remand for
the limited purpose of correcting Perry’s total special assessment, and returning the $100
assessment for Count 2 if appropriate. We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED IN PART,
VA CA TED AND REMANDED IN PART

FILED: July 7, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7620
(2:11 -cr-00042-RGD-FBS-1)
(2:16-CV-00302-RGD)

UNITED STATES OF AMERICA
Maintiff - Appellee
v.
RAYMOND LEWIS PERRY
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Floyd, Judge Quattlebaum, and
Senior Judge Shedd.
For the Court
Is/ Patricia S. Connor. Clerk

